     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

September 14, 2010

Report Number: A-04-07-07032

Mr. Thomas W. Arnold
Secretary
Agency for Health Care Administration
2727 Mahan Drive,
Mail Stop 1
Tallahassee, FL 32308

Dear Mr. Arnold:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Funding for Emergency Services
Provided to Nonqualified Aliens. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise Novak, Audit Manager, at (305) 536-5309 extension 10 or through email at
Denise.Novak@oig.hhs.gov. Please refer to report number A-04-07-07032 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Thomas W. Arnold


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
  Department of Health & Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





REVIEW OF MEDICAID FUNDING FOR 

EMERGENCY SERVICES PROVIDED TO 

     NONQUALIFIED ALIENS





                        Daniel R. Levinson

                         Inspector General 


                         September 2010

                          A-04-07-07032 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND 


Section 1903(v) of the Social Security Act states that Federal Medicaid funding is available to
States for medical services provided to aliens who are not lawfully admitted for permanent
residence or otherwise permanently residing in the United States under color of law only when
those services are necessary to treat an emergency medical condition. Further, 42 CFR
§ 440.255 states that Federal Medicaid funding is available to States for medical services
provided to aliens granted lawful temporary resident status or lawful permanent resident status
and who meet all other requirements for Medicaid only when those services are necessary to
treat an emergency medical condition.

In Florida, the Agency for Health Care Administration (State agency) administers the Medicaid
program. The State agency reimburses providers for emergency medical services provided to
nonqualified aliens under the Emergency Medicaid for Aliens (EMA) program. The Florida
Administrative Code, section 409.901(9) and (10), uses the definition of an emergency medical
condition contained in Federal regulations. The State agency has policies and procedures for the
EMA program that are contained in various policy manuals, which explain the Medicaid for
Aliens program, Emergency Medical Condition, Emergency Services and Care, and benefit
limits for EMA program. To qualify for the EMA program, an individual must meet all
eligibility requirements for the Medicaid program as described in the Florida Department of
Children & Families Economic Self-Sufficiency Policy Manual. The Florida Department of
Children & Families is responsible for determining the eligibility of the individuals.

During our audit period (July 1, 2005, through June 30, 2007), the State agency processed claims
totaling approximately $411.7 million ($242.3 million Federal share) for medical services
provided to undocumented aliens.

OBJECTIVE

Our objective was to determine whether the State agency claimed for Federal reimbursement
only services for nonqualified aliens that it approved or defined as emergency medical
conditions.

SUMMARY OF FINDINGS

The State agency did not adequately ensure that it claimed for Federal reimbursement only
services for nonqualified aliens that it approved or defined as emergency medical conditions. Of
the 391 claims we reviewed, 355 totaling $2,277,849 met the State’s definition of emergency
services. However, services contained on 33 claims totaling $97,611 ($57,417 Federal share) did
not meet the definition of emergency services and were therefore ineligible for reimbursement.
Additionally, some services contained on the remaining three claims did not meet the definition
of emergency services, but, at the time of our review, the State agency was unable to determine




                                                i
the portion of those claims that was applicable to non-emergency services. During our audit
period, the State agency relied on two medical staff to review approximately 4,000 such claims
per month, and this limited review was not sufficient to prevent some unallowable claims from
being paid.

RECOMMENDATIONS

We recommend that the State agency:

   	 adjust the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
      Program (Form CMS-64) for the $57,417 (Federal share) claimed for services that did
      not meet the State’s definition of emergency care,

   	 review three claims for which it received Federal reimbursement for non-emergency
      procedures performed concurrent with the treatment of emergency conditions to
      determine the Federal share attributable to the non-emergency services and adjust the
      Form CMS-64 accordingly, and

   	 improve existing controls to assure that all claims for services provided to undocumented
      aliens are for conditions that the State agency defines as emergency services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described its actions to address the weaknesses that we identified. The State agency’s
comments are included in their entirety as the Appendix.




                                               ii
                                                   TABLE OF CONTENTS


                                                                                                                            Page          


INTRODUCTION .........................................................................................................1 


     BACKGROUND ......................................................................................................1 

       Medicaid Program ...............................................................................................1 

       Federal Emergency Medicaid Funding for Aliens ..............................................1 

       State Emergency Funding for Aliens ..................................................................1 


     OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2 

       Objective .............................................................................................................2 

       Scope ...................................................................................................................2 

       Methodology .......................................................................................................3 


FINDINGS AND RECOMMENDATIONS ...............................................................3 


     IMPROPER CLAIMS FOR NON-EMERGENCY SERVICES...............................4 

        Internal Controls Need Improvement ..................................................................4                        


     RECOMMENDATIONS ..........................................................................................4 


     STATE AGENCY COMMENTS..............................................................................5 


OTHER MATTER ........................................................................................................5 


APPENDIX 


     STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and low income individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Federal Emergency Medicaid Funding for Aliens

Section 1903(v) of the Act states that Federal Medicaid funding is available to States for medical
services provided to aliens who are not lawfully admitted for permanent residence or otherwise
permanently residing in the United States under color of law only when those services are
necessary to treat an emergency medical condition. Further, 42 CFR § 440.255 states that
Federal Medicaid funding is available to States for medical services provided to aliens granted
lawful temporary resident status or lawful permanent resident status and who meet all other
requirements for Medicaid only when those services are necessary to treat an emergency medical
condition.

Section 1903(v) of the Act and 42 CFR § 440.255 define an emergency medical condition as one
manifested by acute symptoms of such severity that the absence of immediate medical attention
could reasonably be expected to result in (1) placing the patient’s health in serious jeopardy,
(2) serious impairment to bodily functions, or (3) serious dysfunction of any body part or organ.
Further, 42 CFR § 440.255 specifies that there must be “sudden onset” of the condition. In
addition, 42 CFR § 440.255 states that Federal Medicaid funding is available to States for
services provided to pregnant women if a provision is included in the approved State plan.
These services include routine prenatal care, labor and delivery, and routine postpartum care.

State Emergency Funding for Aliens

In Florida, the Agency for Health Care Administration (State agency) administers the Medicaid
program. The State agency reimburses providers for emergency medical services provided to
aliens under the Emergency Medicaid for Aliens (EMA) program. Florida’s State plan limits
coverage of aliens to care and services necessary to treat an emergency condition. The Florida
Administrative Code, section 409.901 (9) and (10), uses the definition of an emergency medical
condition contained in Federal regulations. More specifically, section 409.901 states:

       “Emergency medical condition” means: (a) A medical condition manifesting
       itself by acute symptoms of sufficient severity, which may include severe pain or
       other acute symptoms, such that the absence of immediate medical attention could

                                                1

        reasonably be expected to result in any of the following: (1) Serious jeopardy to
        the health of a patient, including a pregnant woman or a fetus. (2) Serious
        impairment to bodily functions. (3) Serious dysfunction of any bodily organ or
        part.

The State agency has policies and procedures for the EMA program that are contained in various
policy handbooks explaining the Medicaid for Aliens program, Emergency Medical Condition,
Emergency Services and Care, limitations on benefits for EMA program, and the CMS-1500
claim form.

The Florida Medicaid Provider Reimbursement Handbook states that Medicaid coverage of
inpatient services for non-qualified, non-citizens is limited to emergencies, newborn delivery
services, and dialysis services.

The State agency also has a list of services that are never to be paid when they are considered
routine in nature and are not related to an emergency medical condition. The list includes the
following: prenatal and postpartum care, sterilization by any method, treatment for chronic
diseases, chemotherapy, transplants, and outpatient IV therapy.

The Department of Children & Families determines Medicaid eligibility for the EMA program.
Medical assistance for non-citizens, who are Medicaid eligible except for their citizenship status,
may be eligible for Medicaid to cover a serious medical emergency. This includes the
emergency labor and delivery of a child. Before Medicaid may be authorized, applicants must
provide proof from a medical professional stating the treatment was due to an emergency
condition and must include the dates of the emergency. Eligible individuals are certified for a
minimum of 1 month and receive a medical assistance identification card. The State agency may
renew the certification for certain medical conditions.

The State agency contracts with Affiliated Computer Services to operate its Medicaid
Management Information System (MMIS) to process Medicaid claims including EMA claims.
The MMIS processes claims based on eligibility information in the State agency’s Automated
Client Eligibility System.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed for Federal reimbursement
only services for nonqualified aliens that it approved or defined as emergency medical
conditions.

Scope

We reviewed a judgmental sample of 391 claims totaling $2,448,918. During our audit period,
July 1, 2005, through June 30, 2007, the State agency processed 70,823 institutional claims
totaling approximately $236 million ($139 million Federal share) for medical services provided

                                                 2

to undocumented aliens. We limited our review to the EMA program’s internal controls over
claims for medical services provided to undocumented aliens.

We performed our fieldwork at the State agency in Tallahassee, Florida, and at selected medical
providers.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal and State laws and regulations and the State plan;

   	 reviewed the State agency’s existing edits in the MMIS system and discussed with
      the medical review staff the nature and scope of their review function;

   	 reviewed the State agency’s policies and procedures and EMA program

      instructions related to the payment of claims for emergency medical services 

      provided to undocumented aliens; 


   	 interviewed selected medical providers and personnel from the State agency, 

      Region IV CMS, and Florida Department of Children & Families; and


   	 judgmentally selected 391 claims totaling $2,448,918.

An emergency room nurse working for CMS Region IV reviewed all 391 of these claims,
and the State agency’s medical staff members, who make eligibility determinations for
this program, reviewed the claims with questioned services. The purpose of the reviews
was to obtain the reviewers’ professional opinions whether the services contained in these
claims met the definition of emergency services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not adequately ensure that it claimed for Federal reimbursement only
services for nonqualified aliens that it approved or defined as emergency medical conditions. Of
the 391 claims we reviewed, 355 totaling $2,277,849 met the State’s definition of emergency
services. However, services contained on 33 claims totaling $97,611 ($57,417 Federal share) did
not meet the definition of emergency services and were therefore ineligible for reimbursement.
Additionally, some services contained on the remaining three claims did not meet the definition
of emergency services, but, at the time of our review, the State agency was unable to determine
the portion of those claims that was applicable to non-emergency services. During our audit

                                                3

period, the State agency relied on two medical staff to review approximately 4,000 such claims
per month, and this limited review was not sufficient to prevent some unallowable claims from
being paid.

IMPROPER CLAIMS FOR NON-EMERGENCY SERVICES

The State agency claimed Federal reimbursement for 36 claims that, in total or in part, did not
meet the definition of emergency services and were therefore ineligible. These claims
represented the following:

   	 Thirty-two claims totaling $97,234 ($57,195 Federal share) were for routinely scheduled
      visits through emergency room departments to receive: chemotherapy, obstetric and
      gynecological treatment, and gamma globulin and antibiotic injections.

   	 One claim totaling $377 ($222 Federal share) was for medical services related to a liver
      transplant, which is specifically excluded from coverage under the EMA program.

   	 Three claims were for a combination of non-emergency services performed concurrent
      with the treatment of emergency conditions. The non-emergency services included
      removal of a tattoo and two elective tubal ligations. At the time of our review, the State
      agency was unable to determine the Federal reimbursement attributable to the non-
      emergency services identified in the review.

Internal Controls Need Improvement

The State agency’s internal controls were not adequate to prevent these 36 claims from being
paid as emergency services. The State agency used an edit to identify claims for undocumented
aliens. Once flagged by the edit, the State agency required its medical staff to manually review
all such claims to approve or deny payment. The State agency said that its medical staff
consisted of two employees who review approximately 4,000 claims per month. These controls
were not sufficient to prevent all improper claims. The State agency had another edit on its
system; however, it was not using the edit during our audit period. This edit (Edit 04131,
“Admin Type”) classifies the nature and necessity of hospital admissions. The edit classifies
claims under one of the following five options: (1) emergency, (2) urgent, (3) elective,
(4) newborn, and (5) information not available. If active, this edit may have ensured that the
State agency properly claimed Federal reimbursements.

RECOMMENDATIONS

We recommend that the State agency:

   	 adjust the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
      Program (Form CMS-64) for the $57,417 (Federal share) claimed for services that did
      not meet the State’s definition of emergency care,



                                                4

   	 review three claims for which it received Federal reimbursement for non-emergency
      procedures performed concurrent with the treatment of emergency conditions to
      determine the Federal share attributable to the non-emergency services and adjust the
      Form CMS-64 accordingly, and

   	 improve existing controls to assure that all claims for services provided to undocumented
      aliens are for conditions that the State agency defines as emergency services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described its actions to address the weaknesses that we identified. The State agency’s
comments are included in their entirety as the Appendix.

                                     OTHER MATTER

Emergency status for dialysis services is not defined in the Florida Administrative Code or the
State Plan. However, the Florida Medicaid Provider Reimbursement Handbook establishes
coverage for dialysis services. Therefore, the State agency considers dialysis to be covered
services for the EMA program. Accordingly, the State agency automatically pays dialysis
claims. Of the 391 claims we reviewed, 213 were for dialysis services totaling $86,718 ($51,066
Federal share).




                                               5

APPENDIX 





   6

                                                                                             Page 1 of3


               APPENDIX: STATE AGENC Y COMM ENTS 





 CHARLIE CRIST                                                                THOMAS W. ARNOLD
   GOVERNOR                                                                      SECRETARY

                                         August S. 2010



Mr. Peter 1. Barbera
Regionallnspeclor GeneraJ
Office of Audit Services, Region IV
6 1 For.;yth Street, SW Suite 3T4J
Atlanta, Georgia 30303

Dear Mr. Barbera:

Thank you for the opportunity to respond to the draft report entit led Review ofMedicaid Funding
for Emergency Se",ices Provided to Nonquulified Aliells (Report #A -04-07·07031). P lease see
                                                                                      or
the attached response table. We appreciate the efforts of your staff duri ng the course this
audit.

If you have any questions regarding our response, p""" '.olaC!                       Ac ting
Audit Director, at (850) 412-3980


                                            Sincerely,



                                            Thomas W. Arnold
                                            Secretary

TWAJdr
Enclosure




  2721 !oI aha .. DtlU • Ma il StOI> 1                                      VI,U ,1IHCA "n/ine .. /
  Tall.hass.... FL 32308                                                     ahca . myUo'; rSa . com




     Office of Inspector General -- The deleted text has been 

     redacted because it is personally identifi able information. 

                                                                                                                                  Page 2 of3



,\ gen oy for Hea lth Cal"1' Ad mi nls tra1ion
KUjHftSt to 11I1S/OI G Du f, Rtpo rt
Ru it»"of Medl .ald Funding for ':m. rg. n ~y Sen"lrq ProY;dt d to
N on qu llf1~   Aliens

                                                                                                                                  Anl ldp"od
                                                                                                                 StalO",eot of    Con.pl.llo n
             Find ing . ,                      Ruo mnlenda tlon             ;\lan agrn,ent Respoa !l<'
                                                                                                                 Co~<~r ..n«        I)a ' < &
                                                                                                                                    Cou,a.!




                                                                                                                                 ­
    The Stat< agen<ydid 001             W. recommend Ihallhe Slate          The Age""y's                                         7.'1/2010
    alequalely""surc thaI i1           agmey:                               OOnlraClOO quali!)'          eooo"
    claimed ror Fede",l                                                     in'p"'....,m.n'
    r~imbursemcnt       (lilly         D adju.sl the Qit(J.terly MMiCilid   organ;l.ation began
    ,.",'Ie•• for nonqualified         Ss/llemCfII ofBpcmJiI,,'es fo /'     reviewing all requests
    a1i.1tS thaI il   'I'pro~ed   or   Ihe Medirol AssisloII<:.,            for Medicaid
    ce fontd as emergenc),             Progrum (fonn CMS·64) for the        reimbursement of
    n ed;ClII conditions. or           S57,41 7 (Federal share) claimed     inpatient emergency
    Th<: 39\ cl.ims we                 for     ices Ihnl did               services for
    ",viowed, 3SS totaling             001 me<:llhe State', definition of  undocumenled ali~n$ on
    !2,277,849 mtlthe                  cmcr~cney can:,                     J~ l y I, 20]0. The&<:
    Stale'. defioilion of                                                  ",views deteon;o. Ih.
    emergency &<:rvices.               o review thre<: claims for which point at which the
    Ho"·over. serviees                 il !'\:Cd"ed Federal                emergency 1\0 longu
    <;on1.1ined On 33 claims           rdmburscmc1l1 for non-              exisls. consistenl wilh
    I)taliog $97,611                   emergency                           federal II:gulalions. and
    (557,417 Fe<lcnl shall:)           procedures pcrfonned concurrenl deny Med icaid
    Old-not mffi lho­                  wilh (""UAlment of cmcrgcr.cy rcimbu.-&OOwllI for Ihe
    dcfinilion of cn.ergene),          conditions 10 detem.in. the         remaindcroflhc
    ••"vices and ....ere               Federal share anribulable 10 the    inpatienl Slay.
    Ihcrefore inelig.b le for          non.emergency servi.es ami
     ",imbu~l .                        adjull the Forni CMS·64             The Agency is also
     Additionally, !iOlTIe             accordingly. and                    undcr1al:ing a
     !m'icC$ eomained on the                                               retrospective review of
     ICn>ainin:g three clai ms         o improve exisling contro ls to     all inl"'tiem alien claims
     did 001 me<:1 tbe                 assure th.1 all claims for services from July 2005 Ihrough
     definition of emer erIC             rovidcd to undocumented aliens June JO.201010




                        Office of Inspector Gener al -- The deleted text has been
                        redacted because it is personally identifiable information.
                                                                                                                 Page 3 of 3 




     <)' for "ulth Car. Adminislration
RU poln St lO HIISJOIG Dral't R<porl
R."I~ .. or ~kdkaid Fundinl for Emulon~y S~n'i<H Providfd to
Nonqaotififd Alions

                                                                                                                 Antldp ••• d
                                                                                                  Stotoment of   <:ompletkln
           Finding ~ l                   K«on,mr ndalion              Man age ment Ktsponse                         1)3t.&
                                                                                                  <:on<unon<o
                                                                                                                   COlitact
    .,.,.iccs, bu~ al tho lime    are for conditions that the State   determine point of
    of our re"jew, the St31e      age"."y defines as cmcrS<'1lCY      stabilization.A",
    38en.:y was unable to         serv'ces.                           payments made in error
    doterminc 'he portion of                                          will be recoup«!, ""d
    toose claims Ihat was                                             lhe federal share will be
    appl icable 10 "".n.                                              adjuSted On the Form
    emergency scmce •.                                                CMS-M. The
    During our audit period.                                          retrospeclive review.
    Il e SIOle ageocy relied on                                       will begin CX:lobcr I.
    I'~'O medical stafflo                                             2010,
    !,!viewapproximalely
    4,000 s""h claims per
    nooth. and this limiled
     re"';ew was not ,ufficic'Tlt
    I~ p",,"'ent some

     mallowab le claims from
     bcingpaid.
